                                       TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



May 2, 2012

Robert M. Balzar, OCP 2K-NST

FINAL REPORT – INSPECTION 2011-14061 – REVIEW OF ENERGY EFFICIENCY AND
DEMAND RESPONSE



We initiated a review of the effectiveness of Tennessee Valley Authority’s (TVA) Energy
Efficiency and Demand Response (EEDR) organization. We conducted this review
because energy efficiency and demand reduction initiatives are important components of
TVA’s plan to meet future power needs in its service territory. The objectives of this
review were to determine (1) how TVA measures the effectiveness of its energy efficiency
and demand response programs and (2) if its goals in these areas are being met.

We found EEDR has established a method to measure and verify the programs in place to
accomplish the goals. Specifically, EEDR has contracted with an independent consultant
to help measure the effectiveness of the programs. In addition, we found that EEDR has
performed well overall with respect to its plan for energy efficiency and demand response.
Specifically, TVA achieved its 2011 targets for energy efficiency and demand reduction
and only missed its planned demand reduction for 2009 and 2010 by 2 megawatts (MW)
and 16 MW, respectively. The Green Power Switch program1 planned a 14-percent
increase in sales over the last three years through a series of yearly goals. The program
came close to achieving its goals for 2009 and 2010; however, fell significantly short of its
goal in 2011.

BACKGROUND

“Improving energy efficiency and reducing peak demand are significant actions that help
slow demand growth in a cost-effective manner while addressing air pollution and global
climate change,” according to TVA’s 2007 Strategic Plan. Energy efficiency programs are
designed to encourage residential and commercial users in TVA’s service area to save
energy. Examples of energy efficiency programs include TVA’s in-home energy
evaluation, heat pump retrofitting, incentives for higher efficiency new home construction,
and commercial and industrial incentives for lighting and heating, ventilation, and air-
conditioning. Demand Response programs reduce demand for energy at critical high-
use/high-price (peak) times through more efficient use of current supply resources.
Demand Response offsets the need for investment in peaking resources. Additionally, in

1
    While this program does not directly contribute to energy efficiency or demand response, it was included in
    this review because it fell under the EEDR organization. As of September 2011, the Green Power Switch
    program has been moved to the Renewable Energy Programs organization rather than EEDR.
       WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
        distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                is not to be further distributed without prior approval of the Inspector General or his designee.

                                       TVA RESTRICTED INFORMATION
Robert M. Balzar
Page 2
May 2, 2012



2000, TVA began the Green Power Switch program, which is described as a program
where consumers can pay $4 a month, and TVA will add 150 kilowatt hours of electricity
generated by a renewable resource. Green Power Switch reflects TVA’s commitment as a
public utility to develop low-impact energy sources.

TVA’s 2007 Strategic Plan stated that TVA will strive to be a leader in energy-efficiency
improvements and peak-demand reduction over the next five years. Based on this goal, in
May 2008, a new organization, EEDR, was formed to design and deliver products to
benefit customers, consumers, and the TVA system. The initial objective of this
organization was to reduce peak-demand growth by 1,400 MW by the end of fiscal year
(FY) 2012.

In August 2010, TVA’s Board of Directors adopted a renewed vision to become one of the
nation’s leading providers of low-cost and cleaner energy by 2020. As part of that vision,
the Board set a goal for TVA to be a leader in the Southeast for energy efficiency. To
achieve this vision, EEDR has been tasked with an energy savings goal of 3.5 percent of
sales by 2015.2 In addition, the goal for reducing demand was revised to 1,900 MW
between 2011 and 2015.

In October 2011, the Government Accountability Office (GAO) issued a report that, in part,
examined TVA’s efforts to use energy efficiency to meet demand for electricity. GAO
found that TVA may not be fully considering this alternative because (1) TVA had not
completed a study of the energy efficiency potential for its service area; (2) TVA’s use of
energy efficiency is constrained by factors, such as its planning model; and (3) unlike
many other utilities, TVA is not subject to mandates and incentives, which would lead it to
consider energy efficiency before other resources.

TVA contracted with an external contractor to do a study of the energy efficiency and
demand response potential for its service area. The study was completed in
December 2011 and found TVA’s energy efficiency programs are off to a strong start, with
a comprehensive suite of programs currently moving from the planning to the
implementation phase.3 In addition, the results of the demand response assessment
reveal that TVA has significant potential for demand response resources over the next two
decades.

In TVA’s response to GAO’s concern regarding the planning model, TVA indicated it
“. . . studied five EEDR portfolios in its Integrated Resource Plan. The planning model
itself does not make a determination of the most cost-effective, individual-efficiency
programs. TVA does have a process in place to screen programs for total resource cost
and utility cost prior to constructing the efficiency portfolios. As a prudent utility practice,
models are excellent tools to inform expert judgment. However, the planning process
must also include business expertise and strategic recommendations from knowledgeable
planners.”




2
    The 3.5 percent energy savings goal is being revised based on the budget.
3
    Global Energy Partners, “Tennessee Valley Authority Potential Study,” December 21, 2011, pp. 24-35.
                                  TVA RESTRICTED INFORMATION
Robert M. Balzar
Page 3
May 2, 2012



TVA is not subject to mandates and incentives that would lead it to consider energy
efficiency before other resources. Some states have adopted Energy Resource Standards
that set requirements for energy efficiency for utilities and, in some cases, offer incentives
for meeting these requirements. However, there is potential legislation that, if passed,
could lead to federal standards and/or more states to adopt Energy Resource Standards.

OBJECTIVE, SCOPE, AND METHODOLOGY

This review was performed because energy efficiency and demand reduction initiatives
are important components of TVA’s plan to meet future power needs in its service
territory. The objectives of this review were to determine (1) how TVA measures the
effectiveness of its energy efficiency and demand reduction programs and (2) if its goals in
these areas are being met.

To achieve our objectives we:

    Reviewed policies and procedures to identify the methodology used for measuring
     performance.
    Researched applicable laws and regulations to determine if there were any standards
     EEDR should be following.
    Interviewed key TVA personnel to gain an understanding of the process used for
     setting goals and evaluating performance.
    Reviewed documentation, such as strategic plans, consultant reports, and performance
     reports, to determine the goals for the organization and if it was meeting those goals.

The scope of this review included FY 2009 through FY 2011. This review was conducted
in accordance with the “Quality Standards for Inspection and Evaluation.”

FINDINGS

We found EEDR (1) has contracted with an independent consultant to provide evaluation,
measurement, and verification services4 and (2) achieved its planned energy efficiency
and demand reduction for 2011 and only missed its planned demand reduction in 2009
and 2010 by 2 MW and 16 MW, respectively. The Green Power Switch program planned
a large increase in sales (14 percent) over the last three years through a series of yearly
goals. The program came close to achieving its goals for 2009 and 2010; however, fell
significantly short of its goal in 2011.

To help determine the effectiveness of its programs, EEDR has had a contract with an
external consultant, DNV KEMA,5 since 2009 to provide evaluation, measurement, and
verification services of the energy efficiency and demand reduction programs.


4
    Evaluation, measurement, and verification services include the use of modeling software to produce
    estimates for program potential and impact of various variables. This may include surveys, usage tracking,
    verification of installations, and performance of manufacture claims.
5
    DNV KEMA describes itself as a global, leading authority in energy consulting and testing and certification.
                                    TVA RESTRICTED INFORMATION
Robert M. Balzar
Page 4
May 2, 2012



Evaluation includes establishing baselines and assessing market potential, identifying
opportunities for process improvement, and estimating the true impact of a resource.
Measurement and verification services include verifying installations and measuring
results to determine actual performance. This process includes reviewing rate payer
usage amounts based on three years of billing to obtain an overall net effect of the
program. DNV KEMA evaluated TVA’s In-Home Energy Evaluation and Online Audit
programs in 2011, and six more programs are planned to be evaluated in 2012. In
addition, EEDR plans to hire personnel to be points-of-contact for DNV KEMA and assist
with gathering requested information.

Another gauge of the effectiveness of a program has been based on whether EEDR was
meeting its overall energy efficiency and demand reduction goals. Achieving these goals
is based on the performance of the individual programs and does not attempt to take
credit for external factors, such as the economy. Looking at the performance since 2009,
EEDR met or came very close to meeting its goals on a yearly basis, except for the Green
Power Switch in 2011.

As discussed above, EEDR had a goal of reducing peak demand by 1,400 MW by the end
of FY 2012. Along with the Board’s renewed vision came a revised goal of 1,900 MW
between 2010 and 2015. For years 2009 and 2010, we compared EEDR’s performance
based on the plan set to achieve the original 1,400-MW goal. For 2011, we compared
performance to the plan to achieve the 2010 revised goals. As seen in Figure 1 below,
EEDR exceeded their goal in 2011 and were, at most, 16 MW away from achieving it in
previous years.

                   Figure 1: EEDR Demand Reduction Performance
            Year                  Plan (Cumulative)             Actual (Cumulative)
            2009                        207 MW                         205 MW
            2010                        317 MW                         301 MW
            2011                        662 MW                         675 MW

As for energy efficiency, the goal to become a leader in the Southeast by 2015 was set in
August 2010. Therefore, the only year of data to evaluate is 2011. Energy savings is
measured in gigawatt hours (GWh). Based on performance reports, EEDR exceeded
their goal for 2011 of 550 GWh by 9 GWh.




                            TVA RESTRICTED INFORMATION
Robert M. Balz
             zar
Pag
  ge 5
Ma
 ay 2, 2012



TVA A’s Green Power
                 P       Switch
                              h program performed we     ell during 20
                                                                     009 and 2010  0; however, it did
nott meet its thrree-year goa al of a 14-percent increa ase in sales. As seen in Figure 2 be   elow,
it was
   w only 119    9 megawatt hours
                              h       (MWh) short of the e planned 87,425 MWh in 2009 and      d
497 7 MWh shorrt of the planned 93,980 MWh in 201       10. In 2011, however, p   performance
dec clined, falling
                  g 5,677 MW Wh short of its
                                           s 100,000 M MWh goal. In  n its year-end report for 2011,
this
   s decline wa  as attributed to a delay in
                                           n two new un  niversity purrchases and lower than
exppected distributor participation in the e Direct Mail pilot prograam. According to TVA
ma anagement, one o of the university con  ntracts has bbeen signed, and purcha    ases will beggin in
Aprril 2012. In addition,
                  a         wh
                             hile distributo
                                           or participatio
                                                         on in the Dirrect Mail pro
                                                                                  ogram is voluuntary,
thee Green Pow   wer Switch prrogram conttinues to devvelop materials and plan    n events to
proomote and encourage en     nd-use custo omers to parrticipate.

                        Figure 2: Green
                                      n Power Sw
                                               witch Perforrmance




Thiis memorand dum does no
                         ot include an
                                     ny recomme endations an
                                                           nd is to be ussed for
info
   ormational purposes
              p        only. Accordingly, no resp
                                                ponse is nece
                                                            essary.

Info
   ormation conntained in th
                           his memoran ndum may be    e subject to public disclo
                                                                               osure. Pleasse
advvise us of an
               ny sensitive information in this reporrt that you re
                                                                  ecommend b  be withheld.

                        -       -        -       -       -       -




                               TVA REST
                                      TRICTED INF
                                                FORMATION
Robert M. Balz
             zar
Pag
  ge 6
Ma
 ay 2, 2012



If you
   y have any  y questions oro wish to discuss our o bservations,, please con
                                                                            ntact Heatheer R.
Kullisek, Seniorr Auditor, at (423) 785-4815 or Greg
                                                   g R. Stinson,, Director, Evaluations, a
                                                                                         at
(4223) 785-48677.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

HR
 RK:FAJ
cc: Micheal B. Fussell, WT T 9B-K
    Peyton T. Hairston, Jrr., WT 7B-K
    Joseph J. Hoagland, WTW 7B-K
    Tom Kilgore, WT 7B-K K
    Richard W.
             W Moore, ET T 4C-K
    Emily J. Reynolds,
             R         OCCP 1L-NST
    Robert B. Wells, WT 9B-K
                         9
    OIG File No:
             N 2011-140   061




                              TVA REST
                                     TRICTED INF
                                               FORMATION
